March 31, 2008

WILLIAM (ASHLEY) LYONS
MANAGER, CORPORATE FINANCIAL PLANNING

AREA FINANCE MANAGERS

SUBJECT: Audit Report – In-Office Cost System Telephone Readings
         (Report Number CRR-AR-08-004)

This report presents the results of our review of In-Office Cost System (IOCS) sampling
data (readings) collected by telephone (Project Number 07YG052MS000). The
objective of our review was to assess the accuracy of IOCS data obtained from
telephone readings. The Postal Accountability and Enhancement Act
(Public Law 109-435) requires the U.S. Postal Service Office of Inspector General (OIG)
to regularly audit the data collection systems and procedures the U.S. Postal Service
uses to prepare its reports analyzing costs, revenues, rates, and quality of service for
the Postal Regulatory Commission.

Management requested that the OIG assist in determining how to improve the accuracy
of IOCS telephone readings. The Postal Service has adequate policies and procedures
for conducting IOCS telephone readings and recent management actions have
increased the accuracy of data obtained from telephone readings. However, at three
districts we found that 70 out of 163 (43 percent) IOCS telephone readings we reviewed
were inaccurate. The telephone readings were inaccurate because data collectors and
supervisors did not follow policies and procedures, xxx xxxx xxxx xxxxxxxxxx xxx xxxx
xxxxxxxxx xxxx xx xxx xx xxx xxxxxxxxxxx xx xxxxxxx xxxxxxxxx xxxxxxxx. In addition,
a nationwide analysis of IOCS telephone readings indicates that data collectors appear
to adjust the timing of their morning and afternoon readings. This could affect the
attribution of city delivery carrier costs to the classes and subclasses of mail and special
services.

We made five recommendations to strengthen controls over the integrity of IOCS data
collection. We recommended that management expand existing quality control
programs to assist field managers in identifying and monitoring data collectors with a
high number of inaccurate IOCS readings; ensure that field operations fully understand
the importance of providing adequate support for IOCS data collection; and develop
procedures for verifying the accuracy of IOCS data before transmission and inclusion in
the national aggregation. We also recommended that field personnel implement the
expanded quality assurance processes and ensure that inaccurate data is not included
in the national aggregation. Xxxxx xxxxx xxxx xxxxxxxxxxx xxxx xxxx xxxxxxxxxx xxx
xxxx xxxxxxxxx xxxxxxxxx xxxxxxxx, xxxx xxxxxxxxxxx xxx xxxxxxxx xx xxx xxxxx
xxxxxx xx xxxxxxxxxxxxxx.

Management agreed with our recommendations and has initiatives planned to address
the issues. Xxxxxxx, xxxx xxx xxx xxxxx xxxx xxx xxxxxx xxxxxxxxx xxxxxxxxx xxxxxxx
xx xxxx xxxx xxxx xxxx xxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxxxx xxxxxxxxx xxxx xx
xxxxxxxx xxx xxxxxx xx xxxxxxxxx xxxxxxxx xxx xxxxxxxx xxxxxxx. xxxxxxxxxx xxxxxx
xxxx xxxxxxxxxx xxxxxxxxxxx xx xxxxxx xx xxxxxx xx xx xxxxxxxxx xxxxxxxxx xxxx xx
xxxxx xx xxxx xxxxxxxxxx xxxxxx. They also stated that timing differences at mail
processing facilities are not similar to those at post offices, stations, and branches,
which have different patterns of peak busy periods. Consequently, we modified the
report xx xxxxxxx xxxxxxxxxx xxxxx xxxxxxxx xxxxxxxxxxx xx xxx xxxx xxxxxxxxxx xx
xxx xxxxxx xx xxx xxxxxxxxx xxxxxxxx. Management’s comments and our evaluation of
these comments are included in the report.

The inaccurate IOCS tests we found could affect the attribution of about $3.2 million in
labor costs to mail classes and subclasses and special services. These errors in
management information can impact decisions in the ratemaking process.
Implementing our recommendations would improve the reliability of IOCS telephone
readings and the integrity of data used in the ratemaking process. Finally, during our
review, management corrected the leave balances for two employees who were on
leave status but did not have leave processed in the timekeeping system. This
represents about $12,355 in funds that could be put to better use. We will report these
monetary and non-monetary benefits (improving the reliability and preserving the
integrity of data used in the ratemaking process) in our next Semiannual Report to
Congress.

The OIG considers recommendations 1, 4, and 5 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue, and Rates, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: H. Glen Walker
    Lynn Malcolm
    Area Vice Presidents
    J. Ron Poland
    District Finance Managers
    Katherine S. Banks
In-Office Cost System Telephone Readings                                   CRR-AR-08-004



                                  TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                      1

     Background                                                                    1
     Objective, Scope, and Methodology                                             2
     Prior Audit Coverage                                                          2

 Part II

 Audit Results                                                                     4

     Efforts to Improve the Quality of In-Office Cost System Data                  5

     In-Office Cost System Data Accuracy in Three Districts                       6
          Incorrect or Unknown Respondent Names                                   8
          Incorrect Employee Pay Status                                           9
          Incorrect Street/Office Designation for City Delivery Carriers         10
          Incorrect Management Operating Data System Operation                   10
            Codes
          Incorrect Sample Method                                                10
          Error Causes                                                           10

     In-Office Cost System Telephone Reading Timing Differences                  12
     Recommendations                                                             13
     Management’s Comments                                                       13
     Evaluation of Management’s Comments                                         15

     Other Matters of Interest                                                   15
         Time and Attendance Collection System Errors                            15
         Data Collector Survey                                                   16

 Appendix A. Scope and Methodology                                               17

 Appendix B. Types of In-Office Cost System/Time and Attendance                  19
             Collection System Exceptions

 Appendix C. Comparison of Readings Taken Between 20 and 30                      20
             Minutes Late or Early by Time of Day and Craft
In-Office Cost System Telephone Readings     CRR-AR-08-004



 Appendix D. Data Collector Survey Results         21

 Appendix E. Management’s Comments                 22
In-Office Cost System Telephone Readings                                        CRR-AR-08-004



                                 EXECUTIVE SUMMARY
 Introduction                 We conducted this review to assess the accuracy of In-
                              Office Cost System (IOCS) data obtained from telephone
                              readings. Section 3652(a) of the Postal Accountability and
                              Enhancement Act (Public Law 109-435) requires the U.S.
                              Postal Service to annually submit a report to the Postal
                              Regulatory Commission analyzing costs, revenues, rates,
                              and quality of service. The U.S. Postal Service Office of
                              Inspector General (OIG) is required to regularly audit the
                              data collection systems and procedures used to prepare this
                              report.

 Results in Brief             The Postal Service has adequate policies for conducting
                              telephone readings and recent management actions have
                              improved the quality of telephone readings. However, in the
                              three districts we selected for review, we found that
                              employees did not always follow data collection procedures,
                              xxxx xxxxxxxxxx xxx xxxx xxxxxxxxx xxxx xxxxxxxxx
                              xxxxxxxx, and respondents may have provided inaccurate
                              information. Overall, we found that 70 out of 163 (43
                              percent) IOCS telephone readings we reviewed were
                              inaccurate. In addition, some data collectors appeared to
                              adjust the timing of their morning and afternoon IOCS
                              readings. This may result in conducting a greater number of
                              IOCS readings when city delivery carriers are on the street
                              versus in the office. This could affect the attribution of city
                              delivery carrier costs to the classes and subclasses of mail
                              and special services.

                              The 70 inaccurate IOCS tests could affect the attribution of
                              about $3.2 million in labor costs to mail classes and
                              subclasses and special services. These data errors
                              included in management information could impact decisions
                              in the ratemaking process. Implementing our
                              recommendations would improve the accuracy of IOCS
                              telephone readings and improve the integrity of data used in
                              the ratemaking process.

                              Finally, during our review management corrected the leave
                              balances for two employees who were on leave status but
                              did not have leave processed in the timekeeping system.
                              This represents about $12,355 in funds that could be put to
                              better use. We will report these monetary and non-
                              monetary (improving the reliability and preserving the




                                               i
In-Office Cost System Telephone Readings                                        CRR-AR-08-004




                              integrity of data used in the ratemaking process) benefits in
                              our next Semiannual Report to Congress.

 Summary of                   We made five recommendations to strengthen controls over
 Recommendations              the integrity of IOCS data collection. We recommended that
                              management expand existing quality control programs to
                              assist field managers in identifying and monitoring data
                              collectors with a high number of inaccurate IOCS readings;
                              ensure that field operations fully understand the importance
                              of providing adequate support for IOCS data collection; and
                              develop procedures for verifying the accuracy of IOCS data
                              before transmission and inclusion in the national
                              aggregation. We also recommended that field personnel
                              implement the expanded quality assurance processes and
                              ensure they do not include inaccurate data in the national
                              aggregation.

 Summary of                   Management agreed with our recommendations and has
 Management’s                 initiatives planned to address the issues. Management
 Comments                     stated they would strengthen existing quality control and
                              awareness programs and provide additional policies,
                              procedures, and management tools to area and district
                              personnel to ensure that the best information available is
                              collected and recorded. Area management personnel
                              agreed to implement the improved quality control
                              procedures.

                              Management also stated they would review the monetary
                              impact of the incorrect leave. xxxxxxx, xxxx xxx xxx xxxxx
                              xxxx xxx xxxxxx xxxxxxxxx xxxxxxxxxx xxxxxxxx xx xxxx
                              xxxx xxxx xxxx xxxxxxxxxx xxxxxxxxxxx xxxxxxxxx xxxx xx
                              xxxxxxxx xxx xxxxxx xx xxxxxxxxx xxxxxxxx xxx xxxxxxxx
                              xxxxxxx. xxxxxxxxxx xxxxxx xxxx xxxxxxxxxx xxxxxxxxxx x
                              xxxxxxxxx xxxxxx xx xx xxxxxxxxx xxxxxxxxx xxxx xx xxxxx
                              xx xxxx xxxxxxxxxx xxxxxx. They also stated that timing
                              differences at mail processing facilities are not similar to
                              those at post offices, stations and branches, and that these
                              facilities have different patterns of peak busy periods.
                              Management’s comments, in their entirety, are included in
                              Appendix E.

 Overall Evaluation of        The OIG considers management’s comments responsive to
 Management’s                 the recommendations. Management’s corrective actions
 Comments                     should resolve the issues identified in the report.



                                               ii
In-Office Cost System Telephone Readings                                          CRR-AR-08-004



                                       INTRODUCTION
 Background                   The In-Office Cost System (IOCS) is an employee work
                              sampling system used to distribute over $32 billion in the
                              labor costs of clerks, mail handlers, city delivery carriers,
                              and supervisors to the activities carried out by those
                              employees and to classes and subclasses of mail and
                              special services.

                              Although management records the total labor costs for
                              those employees in accounting records, those records do
                              not indicate how the total costs are related to each specific
                              class and subclass of mail and each special service.
                              Management can estimate work time spent on various
                              functions in the office and time spent handling or processing
                              categories of mail by sampling employee work activities.

                              Responsibility for IOCS program management is divided as
                              follows:

                              •   The Statistical Programs unit within headquarters
                                  Finance develops the statistical sampling design and
                                  related data collection policies and procedures. They
                                  also process and analyze national IOCS data.

                              •   Within each U.S. Postal Service district, a Statistical
                                  Programs manager provides technical guidance on
                                  statistical data collection to other functional managers,
                                  postmasters, and employees and monitors data
                                  collection results to ensure that proper sampling and
                                  reporting techniques are used.

                              •   Data collectors are to observe and record the activity of
                                  each selected employee within 30 minutes of the time
                                  the sampling plan designates. On-site data collectors
                                  collect samplings (readings) through direct observation.
                                  For off-site locations, the data collector calls the
                                  employee’s work location and asks the supervisor (the
                                  respondent) to locate and observe the employee.

                              •   Data collectors use an automated script on a laptop
                                  computer to guide the data collection reading. The




                                                1
In-Office Cost System Telephone Readings                                                           CRR-AR-08-004



                                       collector records the characteristics1 of any mail, postal
                                       form, or equipment the employee may be handling at the
                                       time. The collector records other data including the
                                       employee’s paid status, Management Operating Data
                                       System (MODS) operation number,2 and, if received
                                       over the telephone, the respondent’s name. If the city
                                       delivery carrier is clocked to the street, the collector
                                       records work activity and route information, but no
                                       mailpiece data.

                                   •   Plant managers and postmasters are responsible for
                                       ensuring plant and post office staff provides adequate
                                       support and accurate data for IOCS readings.

                                   During fiscal year (FY) 2007, the Postal Service conducted
                                   nearly 700,000 IOCS readings.3 Each IOCS reading
                                   attributes about $46,000 in labor costs, for a total of about
                                   $32 billion in labor costs allocated to classes and
                                   subclasses of mail and special services.

                                   Management uses IOCS testing data in various reports —
                                   including the Cost and Revenue Analysis (CRA) report and
                                   the International CRA report — as input into new postal rate
                                   proposals, budgets, and various management studies.

    Objective, Scope, and          Our objective was to assess the accuracy of IOCS data
    Methodology                    obtained from telephone readings. Appendix A describes
                                   the audit scope and methodology.

    Prior Audit Coverage           The OIG issued three capping reports summarizing the
                                   results of statistical program audits conducted in
                                   judgmentally selected Postal Service districts. Our audits
                                   found that employees did not always follow data collection
                                   procedures and attend the required training before
                                   conducting tests. We also noted that Statistical Programs
                                   managers did not always perform quarterly mail exit points.




1
  Mail characteristics include shape, weight, destination, indicia, postage, mail class and rate markings, barcode
information, special service markings, and other details depending on the mailpiece.
2
  MODS collects, stores, and reports mail volume, workhour, and work activities; MODS operation numbers identify
activities performed in Postal Service facilities.
3
  To efficiently conduct a large number of IOCS readings, collectors conduct about 51 percent by telephone and the
remaining 49 percent on-site. Collectors conducted 78 percent of the telephone readings at non-plant post offices,
stations, and branches.




                                                         2
In-Office Cost System Telephone Readings                                               CRR-AR-08-004




                              Management agreed with the recommendations to
                              reinforce, through training, data collection procedures to
                              ensure the integrity of the statistical data, and to reinforce
                              policies for mail exit point reviews.

                                Report Title                     Report         Date
                                                                 Number
                                Audit of Statistical Tests for   FF-AR-08-084   January 30, 2008
                                Fiscal Year 2007 – Cost
                                and Revenue Analysis
                                Audit of Statistical Tests for   FF-AR-07-093   February 16, 2007
                                Fiscal Year 2006 – Cost
                                and Revenue Analysis
                                Audit of Statistical Tests for   FF-AR-06-091   March 6, 2006
                                Fiscal Year 2005 – Cost
                                and Revenue Analysis




                                                    3
In-Office Cost System Telephone Readings                                          CRR-AR-08-004



                                      AUDIT RESULTS
                              Recent management actions have improved the quality of
                              data obtained from IOCS telephone readings. However, in
                              the three districts we selected for review, we found that
                              employees did not always follow data collection policies and
                              procedures, xxx xxxx xxxx xxxxxxxxxx xx xxxxxxxxxxx xxx
                              xxxx xxxxxxxxx xxxx xx xxx xxxxxxxxxxx xx xxxx xxxxxxxxx
                              xxxxxxxx. Overall, we found that 70 out of 163 (43 percent)
                              IOCS telephone readings we judgmentally selected for
                              review were inaccurate. Management could provide
                              additional training and controls in areas where employees
                              did not always follow data collection policies and procedures
                              to reduce errors and increase the accuracy of IOCS
                              telephone readings. xx xxxxxxxx xxxxxxxxx xxxxxxxx xxxx
                              xxx xxxx xxxx xxxxxxxxx xx xxx xxx xxxxxx xx xxxxxxxxxxx.

                              In addition, an analysis of IOCS telephone readings
                              indicated that some data collectors adjusted the timing of
                              their morning and afternoon readings. Collectors tended to
                              conduct morning readings later than the scheduled reading
                              time, while they tended to conduct afternoon readings earlier
                              than the scheduled reading time. As a result, morning and
                              afternoon IOCS readings conducted on city delivery carriers
                              were more likely to be conducted when the city delivery
                              carriers were on the street. This could affect the attribution
                              of city delivery carrier costs to the subclasses and classes of
                              mail and special services.

                              The 70 inaccurate IOCS tests we found could affect the
                              attribution of about $3.2 million in labor costs to mail classes
                              and subclasses and special services. The inaccurate tests
                              affect the integrity of IOCS test data used to develop the
                              CRA report and postal rates. Implementing our
                              recommendations would improve the reliability of IOCS
                              telephone readings. Finally, during our review management
                              corrected the leave balances for two employees who were
                              on leave status but did not have leave processed in the
                              timekeeping system.




                                                4
In-Office Cost System Telephone Readings                                                       CRR-AR-08-004




    Efforts to Improve           Management has improved the quality of IOCS data
    the Quality of               collected during the past 2 years by developing exception
    In-Office Cost               reports to highlight potential data errors. In FY 2005, the
    System Data                  Postal Service began comparing city delivery carrier work
                                 activity recorded during IOCS readings to work activity data
                                 recorded in the Time and Attendance Collection System
                                 (TACS).4 In FY 2006, management expanded the
                                 exception reports to include city delivery carriers, clerks,
                                 and mail handlers. Statistical Programs personnel provide
                                 IOCS/TACS exception5 reports biweekly to district
                                 managers as a tool for identifying the root cause of
                                 IOCS/TACS exceptions and improving the quality of IOCS
                                 and TACS data. Appendix B summarizes six types of
                                 IOCS/TACS exceptions.

                                 Management could not provide reliable information on the
                                 number of FY 2005 IOCS/TACS exceptions for city delivery
                                 carriers. However, we estimate there were more than
                                 100,000 IOCS/TACS exceptions in FY 2005. During
                                 FY 2006, these comparisons identified 24,351 exceptions,
                                 or about 6.4 percent of all nonstop readings. Nonstop
                                 IOCS readings occur when the sampled employee is at
                                 work and engaged in an activity for which they are paid. A
                                 stop-reading occurs when the sampled employee was not
                                 scheduled to work or was not at the facility at the time of the
                                 reading. In FY 2007, the Postal Service conducted 688,726
                                 IOCS readings and 359,467 — or 52 percent — were
                                 nonstop.

                                 In FY 2007, the number of IOCS/TACS exceptions for city
                                 delivery carriers, clerks, and mail handler readings declined
                                 to 19,315 (about 5.4 percent of all nonstop readings), as
                                 shown in Table 1.




4
  TACS is a timekeeping system that records employee workhours and leave data. Each time an employee badge
(time card) is swiped on an Electronic Badge Reader, the employee’s workhours and MODS operation number are
recorded.
5
  An IOCS/TACS exception is generated if the employee work activity recorded during an IOCS reading does not
match the employee work activity captured by TACS.




                                                      5
In-Office Cost System Telephone Readings                                                     CRR-AR-08-004




                                         Table 1. Decline in IOCS/TACS Exceptions

                                                                         Exceptions
                                          Nonstop                            Telephone           On-site
                                  FY      Readings         Total     Percent Readings           Readings
                                 2005     315,000        >100,000
                                 2006     381,217          24,351       6.4        13,924        10,427
                                 2007     359,467          19,315       5.4        11,171         8,144

                                Statistical Programs identifies IOCS/TACS exceptions
                                several weeks after conducting the IOCS reading and does
                                not delete them from the IOCS testing results. Therefore,
                                readings with exceptions are used to distribute the labor
                                costs of clerks, mail handlers, city delivery carriers, and
                                supervisors to the activities carried out by those employees
                                and to classes and subclasses of mail and special services.
                                Because each IOCS reading is used to attribute about
                                $46,000 in labor costs, inaccurate IOCS readings among the
                                19,315 FY 2007 IOCS/TACS exceptions could potentially
                                affect the attribution of $888.5 million to the classes and
                                subclasses of mail and special services.

                                In a 2006 Omnibus Rate Case, the Postal Service noted the
                                use of TACS data to validate IOCS readings partly
                                contributed to an increase in in-office costs for carriers.6
                                Continued management attention to reducing the number of
                                IOCS/TACS exceptions is crucial to improving the accuracy
                                of cost, revenue, and rate information reported to the Postal
                                Regulatory Commission.

    In-Office Cost               Overall, we determined that 70 of the 163 (43 percent)
    System Data                  IOCS telephone readings we tested in three Postal Service
    Accuracy in Three            districts were inaccurate. At each district we compared
    Districts                    recently completed IOCS telephone readings with the
                                 sampled employees’ TACS data and identified a total of 242
                                 readings with discrepancies between IOCS and TACS data.
                                 We were able to locate and interview the sampled
                                 employees and/or the respondents for 163 of the 242




6
 Postal Regulatory Commission Docket No. R2006-1, Postal Rate and Fee Changes, 2006, Direct Testimony of
Martin Czigler on Behalf of U.S. Postal Service, USPS-T-1, May 3, 2006.




                                                     6
In-Office Cost System Telephone Readings                                                               CRR-AR-08-004



                                    readings with discrepancies. See Appendix A for our
                                    detailed scope and methodology.7

                                    Of the 163 telephone readings we examined in detail, we
                                    found that 70 (43 percent) were inaccurate. We identified
                                    five types of material errors in the 70 inaccurate telephone
                                    readings, 25 of which had multiple errors. These errors
                                    included:

                                    •    Incorrect respondent name.
                                    •    Incorrect employee pay status.
                                    •    Incorrect city delivery carrier street/office designation.
                                    •    Incorrect MODS operation codes.
                                    •    Incorrect sample method (the IOCS reading was
                                         recorded as on-site, but the reading was actually
                                         conducted by telephone).

                                    Tables 2 and 3 summarize the number of inaccurate
                                    readings and types of material data errors found in each of
                                    the three districts we visited, respectively.

                                        Table 2. Telephone Readings with Inaccurate Data

                                                                   Number of Readings
                                                                              Containing
                                                                              Inaccurate
                                            District             Tested          Data              Percentage
                                     Northern New Jersey           44             12                   27
                                     Greensboro                    46             15                   33
                                     Philadelphia                  73             43                   59
                                     Metropolitan
                                     Totals                       163                 70               43




7
 We were not able to verify the accuracy of the remaining 79 readings because the employee and/or respondent
were not available to be interviewed at the time of our site visits or were at a remote location. See Appendix A for our
detailed scope and methodology.




                                                           7
In-Office Cost System Telephone Readings                                                            CRR-AR-08-004




                                                   Table 3. Material Data Error Tally8

                                                                               District
                                                                Northern                  Philadelphia
                                     Material Data Error       New Jersey    Greensboro   Metropolitan     Total
                                     Respondent Name                4             8            27           39
                                     Pay Status                     9            12            21           42
                                     Street/Office                  -             2             8           10
                                      Designation
                                     MODS Code                     -              -             4            4
                                     Sample Method                 -              1             -            1
                                     Totals                       13             23            60           96


    Incorrect or Unknown            Data collectors are to record the respondents’ names9 to
    Respondent Names                help identify problem respondents and encourage better
                                    data. We interviewed the sampled employees and/or
                                    respondents and determined that 39 of 163 readings
                                    contained an incorrect respondent name. For example, the
                                    person listed as the respondent was on leave or in
                                    retirement status, had transferred from that facility, was
                                    unknown at that facility, or was certain they had not
                                    conducted the IOCS telephone reading. Table 4 lists the
                                    four categories of incorrect or unknown respondent names
                                    and the frequency of occurrence.

                                             Table 4. Readings with Incorrect/Unknown
                                                         Respondent Name

                                                  As Verified                         Occurrences
                                     Respondent was certain the
                                     reading had not been conducted                       17
                                     by them.
                                     Respondent was on leave, retired,
                                     or not at the facility on the date of                16
                                     the reading.
                                     Respondent was unknown at the
                                     facility.                                             5
                                     The listed respondent did not
                                     conduct the reading. Instead,
                                     another supervisor or the sampled                     1
                                     employee conducted the reading.
                                     Total                                                39

                                    In one of the 39 readings with an inaccurate respondent
                                    name, another respondent may have conducted the reading
                                    or the employee may have conducted the reading on

8
    The tally exceeds 70 because some readings had more than one error.
9
    Memorandum of Policy FI-09-13-2005 – Statistical Programs Letter #1, FY 2006.




                                                           8
In-Office Cost System Telephone Readings                                                      CRR-AR-08-004



                              himself. For the remaining 38 readings, the reliability of the
                              data gathered could be questioned if the respondent denies
                              the reading took place or the respondent was not at the
                              facility.

 Incorrect Employee           A total of 42 readings incorrectly recorded the employee’s
 Pay Status                   pay status. An incorrect recording of an employee’s pay
                              status indicates the employee might not have been properly
                              located, identified, and observed. On over 60 percent (26 of
                              42) of the readings where the employee’s pay status was
                              incorrect, the respondent’s name was also incorrect. Data
                              collectors were responsible for 38 of the 42 telephone
                              readings with an incorrect employee pay status. xxxx xx xx
                              xxxxxxxxxx xxxxxxxxx xxxx xxx xxxxxxxxx xxxxxxx xxx xxxx
                              xxxx xxxxxxxxx. Table 5 lists the four categories of incorrect
                              pay status and the frequency of occurrence.

                                           Table 5. Incorrect Employee Pay Status

                                    Recorded in IOCS                       Actual             Occurrences
                               Employee was not present        Employee worked a full
                               at the facility – on leave,     day and was at the
                               transferred to another          facility at the time/on the         6
                               facility, or otherwise not at   date of the reading.
                               work.
                               Employee on non-duty,           Employee was on paid
                               non-pay status (not             holiday leave.                      5
                               scheduled for work).
                               Employee recorded as            Employee was not
                               working at the facility.        present at the facility – on        6
                                                               court leave, transferred to
                                                               another facility, or had the
                                                               day off.
                               Employee recorded in one        Employee was actually in
                               pay status – sick leave,        another pay status –
                               annual leave, or holiday        absent without leave,              25
                               leave.                          holiday leave, annual
                                                               leave, or sick leave.
                               Total                                                              42

                              Respondents were responsible for two of the 42 telephone
                              readings with an incorrect employee pay status. In one of
                              the two, the respondent stated they were unsure whether
                              the employee was on leave, so they told the data collector
                              the employee was “on loan to another office” when, in fact,
                              the employee was on leave. In the other respondent error,
                              the respondent could not locate the employee and assumed
                              they had left for the day when, in fact, the employee was still




                                                    9
In-Office Cost System Telephone Readings                                         CRR-AR-08-004



                              at work. In the remaining two telephone readings with an
                              incorrect employee pay status, we could not determine
                              whether the data collector or respondent was at fault.

 Incorrect Street/Office      In 10 of the inaccurate telephone readings, the city delivery
 Designation for City         carrier work locations were incorrect. When the employee’s
 Delivery Carriers            work location is incorrectly recorded, it indicates the
                              employee was not properly located and identified. The
                              sampled city delivery carriers were recorded on the street in
                              the IOCS telephone reading, but their TACS clock ring
                              records recorded them in the office at the time of the
                              telephone reading or vice versa. We interviewed the
                              sampled employees and/or respondents and verified that the
                              street/office designation in IOCS was incorrect. In five of the
                              10 inaccurate telephone readings, the respondents stated
                              they had assumed the city delivery carriers were on the
                              street when, in fact, they were in the office.

 Incorrect Management         In four of the inaccurate telephone readings, the MODS
 Operating Data               operation code recorded in IOCS did not match the actual
 System Operation             work the employee was performing, as recorded in TACS.
 Codes                        For example, one IOCS telephone reading recorded MODS
                              operation code xxx (miscellaneous activity – delivery
                              services). However, the employee clock ring data in TACS
                              recorded that the employee was on MODS operation code
                              xxx xxxxxxxxxxxxxxxxxx xxxxxxxxx. We interviewed the
                              sampled employee and verified the MODS operation code
                              recorded in IOCS was incorrect. In one of the inaccurate
                              telephone readings, the respondent stated they did not
                              actually observe the employee’s work activity when
                              conducting the reading. In the other two inaccurate
                              readings, we could not determine whether the respondent or
                              data collector was at fault.

 Incorrect Sample             In one inaccurate telephone reading, the employee
 Method                       conducted the telephone reading on himself and the data
                              collector incorrectly recorded the reading as on-site, when in
                              fact it was a telephone reading.

 Error Causes                 In 31 of the 70 inaccurate IOCS telephone readings, the
                              errors occurred because data collectors and/or respondents
                              did not follow established policies and procedures for
                              conducting IOCS telephone readings. xxx xxx xxxxxxxxx xx
                              xxxxxxxxxx xxxxxxxx, xxxxx xx xxxxxxxx xxxx xxx xxxxx xxx
                              xxxx xxxxxxxxx xxxx xx xxx xx xxx xxxxxxxxxxx xx xxx




                                               10
In-Office Cost System Telephone Readings                                        CRR-AR-08-004



                              xxxxxxxxx xxxxxxx, or that the respondents provided
                              inaccurate data. This could introduce multiple errors into the
                              database.

                              Additional management oversight of the data collection
                              process, along with additional training and coordination, is
                              needed to improve the accuracy of IOCS telephone readings
                              and the Postal Service’s cost, revenue, and rates
                              information reported to the Postal Regulatory Commission.
                              For example, if a Statistical Programs manager used
                              IOCS/TACS discrepancy reports to identify data collectors
                              whose telephone readings contained a high number of
                              discrepancies, they could focus monitoring efforts on those
                              collectors and determine the appropriate action for
                              addressing the issues.

                              In the three districts we reviewed, we found that xxx xx xxxx
                              data collectors were responsible for the majority of the
                              inaccurate telephone readings. xxxxxxxxxxxx, xxx xxxx
                              xxxxxxxxxx xx xxx xxxxxxxx xxx xxxxxx xxxxxxxx xxxx
                              xxxxxxxxxxx xxx xx xxxxxxx xxxxx xx xxx xx xxx xxxxxxxxxx
                              xxxxxxxxx xxxxxxxx; xxxxx xxxx xxxxxxxxxx xx xxx
                              xxxxxxxxxxxx xxxxxxxxxxxx xxxxxxxx xxxx xxxxxxxxxxx xxx
                              xx xxxxxxx xxx xx xxx xx xxx xxxxxxxxxx xxxxxxxxx xxxxxx;
                              xxx xxx xxxx xxxxxxxxxx xx xxx xxxxxxxxxx xxxxxxxx xxxx
                              xxxxxxxxxxx xxx xx xxxxxxx xxx xx xxx xx xxx xxxxxxxxxx
                              xxxxxxxxx xxxxxxxx. If inaccurate readings are identified
                              before the readings are approved and transmitted, this could
                              prevent further processing of unreliable data. Readings with
                              data that clearly cannot be verified should be withdrawn
                              from the IOCS test results.

                              Some respondents stated they were not aware of the
                              purpose of IOCS testing and were not motivated to collect
                              and report accurate data. During our audit, the Deputy
                              Postmaster General and Chief Financial Officer issued a
                              joint letter to area vice presidents, district managers, and
                              plant managers emphasizing the importance of supporting
                              Statistical Programs’ tests and the extensive use of the data
                              collected. The letter also noted that Statistical Programs
                              personnel require assistance from supervisors when
                              performing telephone readings.




                                               11
In-Office Cost System Telephone Readings                                                   CRR-AR-08-004




 In-Office Cost                      We analyzed 476,008 FY 2006 IOCS readings conducted
 System Telephone                    nationwide and found that data collectors were much more
 Reading Timing                      likely to conduct telephone readings 20 to 30 minutes late
 Differences                         during the morning transition period when city delivery
                                     carriers are moving from the office to the street. During the
                                     afternoon transition period when city delivery carriers are
                                     returning to the office, the opposite is true and the data
                                     collectors are more likely to conduct telephone readings 20
                                     to 30 minutes early. Telephone readings conducted on
                                     clerks and mail handlers did not show the same timing
                                     differences. Appendix C shows a comparison of readings
                                     taken between 20 and 30 minutes late or early by time of
                                     day and craft.

                                     Postal Service policies state that IOCS readings may be
                                     taken within 30 minutes of the scheduled time, but not for
                                     the convenience of the data collector.10 If the data collector
                                     conducts the telephone reading while the city delivery
                                     carriers are on the street, the reading ends after work
                                     activity and route information is collected.

                                     Correctly identifying whether city delivery carriers are at a
                                     street or office location directly affects the attribution of city
                                     delivery carrier costs to the various classes of mail and
                                     special services. The total accrued costs (salaries, benefits,
                                     and related costs) of city delivery carriers are prorated
                                     between office activity and street activity based on IOCS
                                     estimates. In FY 2007, about $11.1 billion was prorated to
                                     street activity and $5.2 billion to office activity.

                                     In the Postal Service there are two types of costs — volume
                                     variable costs and non-volume variable or institutional costs.
                                     While volume variable costs are directly attributable to mail
                                     classes and special services, institutional costs are generally
                                     not directly attributable. Thirty-eight percent of street activity
                                     costs are volume variable and directly attributed to a specific
                                     class of mail or special service. The remaining 62 percent of
                                     street activity costs are institutional and not directly
                                     attributable. On the other hand, 83 percent of office activity
                                     costs are volume variable and directly attributable to a
                                     specific class of mail or special service. The remaining 17
                                     percent of office costs are institutional and not directly

10
     Handbook F-45, Data Collection User’s Guide for In-Office Cost System, Section 3.2.




                                                          12
In-Office Cost System Telephone Readings                                          CRR-AR-08-004



                              attributable. To the extent that data collectors conduct
                              readings on city delivery carriers while they are on the
                              street, they shift the total accrued costs of city delivery
                              carriers from volume variable to institutional costs, which
                              can impact how rates are determined.

 Recommendation               We recommend the Manager, Corporate Financial Planning,
                              direct the Manager, Statistical Programs, to:

                              1. Expand existing quality control programs to assist area
                                 and district management with identifying and monitoring
                                 data collectors with a high number of inaccurate In-Office
                                 Cost System readings.

 Management’s                 Management agreed with the recommendation and stated
 Comments                     they will develop additional procedures, reports, and
                              requirements for district and area management to
                              consistently identify, monitor, and take corrective action
                              regarding inaccurate IOCS readings. These procedures will
                              be developed by December 31, 2008.

                              However, management did not agree that the report
                              xxxxxxxxx xxxxxxxxxx xxxxxxxx xx xxxx xxxx xxxx xxxx
                              xxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxxxx xxxxxxxxx xxxx xx
                              xxxxxxxx xxx xxxxxx xx xxxxxxxxx xxxxxxxx xxx xxxxxxxx
                              xxxxxxx. xxxxxxxxxx xxxxxx xxxx xxxxxxxxxx xxxxxxxxxxx
                              xx xxxxxx xx xxxxxx xx xx xxxxxxxxx xxxxxxxxx xxxx xx
                              xxxxx xx xxxx xxxxxxxxxx xxxxxx. They also stated that
                              timing differences at mail processing facilities are not similar
                              to those at post offices, stations, and branches, which have
                              different patterns of peak busy periods.

 Recommendation                We recommend the Manager, Corporate Financial
                               Planning, direct the Manager, Statistical Programs, to:

                              2. Evaluate, enhance, and disseminate existing awareness
                                 programs to ensure field operations understand the
                                 importance of and provide support for In-Office Cost
                                 System data collection.

 Management’s                 Management agreed with the recommendation and stated
 Comments                     that Statistical Programs will enhance the existing
                              awareness program by evaluating alternative
                              communication channels, pursuing alternative channels, and
                              disseminating materials as appropriate. This will require



                                               13
In-Office Cost System Telephone Readings                                       CRR-AR-08-004



                              working with other departments and integrating Statistical
                              Programs requirements with those departments’ working
                              plans. Management will develop an awareness program by
                              June 30, 2008, and implement the program by
                              September 30, 2008.

 Recommendation               3. Develop a process for verifying the accuracy of In-Office
                                 Cost System test data before it is approved and
                                 transmitted for inclusion in the national aggregation.

 Management’s                 Management agreed in principle with the recommendation
 Comments                     and stated their current policy is to upload and record daily
                              the best information available at the time of the reading.
                              Management stated that procedures for verifying data must
                              not cause an inordinate delay. Statistical Programs will
                              collaborate with area finance managers to develop policies
                              and procedures to verify data accuracy before approving
                              and transmitting readings. They will enhance procedures for
                              removing readings from the national aggregation after they
                              have been transmitted. These actions will be completed by
                              December 31, 2008.

 Recommendations              We recommend the Area Finance Managers direct the
                              District Managers of Finance to:

                              4. Implement the expanded quality control program
                                 developed by Statistical Programs to identify and monitor
                                 data collectors with a high number of inaccurate In-Office
                                 Cost System readings.

                              5. Follow the quality control procedures Statistical
                                 Programs has established to handle the In-Office Cost
                                 System readings that do not meet data integrity
                                 standards to prevent such data from inclusion in national
                                 aggregation.

 Management’s                 Management agreed with recommendations 4 and 5. The
 Comments                     Area Finance Managers stated they would direct the District
                              Finance Managers to implement and follow the expanded
                              quality control program developed by headquarters.




                                              14
In-Office Cost System Telephone Readings                                          CRR-AR-08-004




 Evaluation of                The OIG considers management’s comments responsive to
 Management’s                 recommendations 1, 2, 3, 4, and 5. Management’s planned
 Comments                     actions should correct the issues identified in the finding.
                              xxxxxxxxxx xxxxxxxxxxx xxxx xx xxxxxxxx xx xxxxxxxxxx xx
                              xxxxxx xx xxx xxxxxxxxxxxxx xx xxxxxxx xxxx xxxxxxxxxx
                              xxxxxxxxxxxxx xxxxxxxxx xxxx xx xxxxxxxxxxxxx xxxx xx
                              xxxxxxxxx. xx xxxxxxxx xx xxx xxxx xxxxxxxxxx xxxxxxxx,
                              xx xxxxxxxx xxx xxxxxx xx xxxxxx xxxxxxxxxx xxxxx
                              xxxxxxxx xxxxxxxxxxx xx xxx xxxx xxxxxxxxxx xx xxx xxxxxx
                              xx xxx xxxxxxxxx xxxxxxxx. However, we do not believe the
                              data provided is sufficient to support a conclusion that no
                              timing differences exist in the collection of data or that these
                              timing differences would not potentially have an impact on
                              the allocation of costs and the determination of rates.

 Other Matters of             During our audit, we identified other matters of interest
 Interest                     involving TACS errors and results of a survey of data
                              collectors. We are not making recommendations in these
                              areas at this time, but are raising them for management’s
                              attention.

 Time and Attendance          During our review of the 163 IOCS telephone readings, we
 Collection System            identified four workhour errors recorded in TACS — the
 Errors                       IOCS reading correctly identified the sampled employee’s
                              work activity, however, the sampled employee was not
                              clocked into that work activity (MODS Operation) in TACS.
                              These errors do not affect the ratemaking process.

                              Additionally, we identified two leave errors during our
                              testing. In the first leave error, we attempted to interview the
                              supervisor recorded as the respondent for an inaccurate
                              IOCS telephone reading, but determined the supervisor had
                              been on annual leave for the past 6 weeks pending
                              retirement. However, the leave information had not been
                              input into TACS and the supervisor remained on at-work
                              status. In the second leave error, an IOCS reading was
                              conducted on a supervisor and correctly identified that the
                              supervisor was on annual leave. However, the annual leave
                              had not been input in TACS and the supervisor was still on
                              at-work status. Management stated they forgot to input the
                              leave requests into TACS. We verified that management
                              processed pay adjustments to correct the leave balances.




                                               15
In-Office Cost System Telephone Readings                                                          CRR-AR-08-004




                                  If we had not detected these errors, they would have cost
                                  the Postal Service about $10,857 and $1,498,
                                  respectively.11 xx xxxxxxxxx xxxxx xxxxxxxxxxxx xx xxx
                                  xxxxx xxxxxx xx xxxxxxxxxxxxxx xxx xxxxxxx xxxxxx. We
                                  will also report $12,355 as funds put to better use in our next
                                  Semiannual Report to Congress.

 Data Collector Survey            We surveyed Postal Service data collectors, asking them to
                                  rate several aspects of their jobs related to IOCS telephone
                                  readings. Most data collectors rated their training as good to
                                  excellent. However, 71 percent of the data collectors rated
                                  the respondent’s knowledge of the IOCS process as fair to
                                  poor, and 39 percent rated the accuracy of IOCS telephone
                                  reading data as fair to poor.

                                  Table 6 displays the responses to four of the survey
                                  questions and Appendix D shows the responses to six
                                  others.

                                            Table 6. Responses to Data Collector Survey

                                                                             Ratings Percentages
                                   Issue                             Poor     Fair Good Excellent
                                   Phone Reading Training             3         8     31        58
                                   Reading Data Accuracy              8        31     52         9
                                   Respondent’s
                                    Cooperation                         7       35        48           10
                                   Respondent’s Knowledge              30       41        27            2

                                  The responses indicate the need for an ongoing awareness
                                  program to emphasize the importance of accurate IOCS
                                  data in measuring financial performance and budget
                                  allocations.




11
  Based on the FY 2007 national average labor rate for an Executive and Administrative Salary Schedule 17
supervisor ($46.80), the 232 hours of leave not charged for one employee would have cost the Postal Service about
$10,857.60. The other supervisor was not charged for 32 hours, or about $1,497.60.




                                                        16
In-Office Cost System Telephone Readings                                    CRR-AR-08-004



                  APPENDIX A: SCOPE AND METHODOLOGY
We conducted this audit from March 2007 through March 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials on February 5, 2007, and
included their comments where appropriate.

To verify management efforts to improve the accuracy of IOCS telephone readings, we
reviewed national, area, and district IOCS/TACS exception data for FYs 2005, 2006,
and 2007. Using FY 2006 data, we selected two districts with high IOCS/TACS
exception rates (Northern New Jersey and Philadelphia Metropolitan at 8 percent and
13 percent, respectively) and one district with a low exception rate (Greensboro at
3 percent) for further review.

At each district, we identified all IOCS telephone readings that had been completed 1 to
2 weeks prior to our visit. At the three districts, there was a universe of 691 recently
completed IOCS telephone readings. For each of those IOCS telephone readings, we
obtained the corresponding workhour activity data from the sampled employee’s TACS
records. Out of 691 recently completed IOCS telephone readings, we identified 242
telephone readings with discrepancies between IOCS and TACS data. We were able to
locate and interview the sampled employees and/or the respondents for 163 of the 242
telephone readings. We were not able to locate and interview the employees and
respondents on 79 readings, usually because of employee/respondent leave or remote
field locations. We did not include these readings in our error calculations. We
completed the on-site interviews during July 2007.

Table 7 displays the sampling data at the three districts.

                       Table 7. Telephone Readings Sampling Data
                                Northern                     Philadelphia
 Telephone Readings            New Jersey   Greensboro       Metropolitan   Total
 Recently Completed
  Readings                         194           186             311        691
 IOCS/TACS Exceptions               56            68             118        242
 Tested                             44            46              73        163

To compare IOCS readings taken late and early by time of day and craft, we analyzed
476,008 IOCS telephone and on-site readings conducted in FY 2006. First, we
extracted FY 2006 IOCS test data for all city delivery carriers, clerks, and mailhanders
at cost ascertainment group (CAG) A and CAG B post offices. There were 151,157 city
delivery carrier IOCS readings and 324,851 clerk and mailhandler readings at CAG A
and CAG B post offices. Next, we separated the city delivery carrier and
clerk/mailhandler IOCS readings between telephone and on-site and grouped the




                                            17
In-Office Cost System Telephone Readings                                    CRR-AR-08-004



readings into seven time intervals according to the scheduled reading time, as shown in
Table 8.
                     Table 8. Scheduled Reading Time Intervals

                                      Interval
                             <= 8:00 am
                             >  8:00 am    <=  9:00 am
                             >  9:00 am    <= 10:00 am
                             > 10:00 am    <=  2:00 pm
                             >  2:00 pm    <=  3:00 pm
                             >  3:00 pm    <=  4:00 pm
                             >  4:00 pm

For each reading, we subtracted the actual reading time from the scheduled reading
time and classified the results into eight categories:

•   More than 30 minutes late
•   21 – 30 minutes late
•   11 – 20 minutes late
•   1 – 10 minutes late
•   0 – 9 minutes early
•   10 – 19 minutes early
•   20 – 29 minutes early
•   30 or more minutes early

We then developed frequencies and summarized the results. Click here to go to
Appendix C for the distribution of results.

To survey data collectors’ perceptions about IOCS telephone readings, we forwarded a
survey to about 1,600 data collectors nationwide. Five of the 10 survey questions
related to the accuracy of telephone reading responses; respondents’ cooperativeness
and knowledge; and the quality of data collectors’ training. We received 504 replies, of
which 468 had usable information.




                                           18
In-Office Cost System Telephone Readings                                   CRR-AR-08-004




     APPENDIX B: TYPES OF IN-OFFICE COST SYSTEM/TIME AND
         ATTENDANCE COLLECTION SYSTEM EXCEPTIONS

IOCS/TACS Exception Reports summarize exceptions of the following types:

   1. IOCS records the city delivery carriers as being on the street, but TACS reports
      them as being in-office.

   2. IOCS records the city delivery carriers as in-office, but TACS shows them on the
      street.

   3. IOCS records an employee work activity, but TACS shows the employee
      off-clock or at lunch.

   4. IOCS records an employee work activity, but TACS shows the employee on
      leave for entire day.

   5. IOCS records an employee work activity, but TACS data on the employee is
      missing or incomplete.

   6. IOCS records the employee not working, but TACS records the employee
      working.




                                           19
In-Office Cost System Telephone Readings                                     CRR-AR-08-004




             APPENDIX C: COMPARISON OF READINGS TAKEN
              BETWEEN 20 AND 30 MINUTES LATE OR EARLY
                      BY TIME OF DAY AND CRAFT


                                                    Percentage of Readings
                                            Taken More                 Taken More
                                       Than 20 Minutes Late      Than 20 Minutes Early
                                                   Clerks and                 Clerks and
 Time Intervals                       Carriers    Mailhandlers   Carriers   Mailhandlers
 12:00 a.m. - 8:00 a.m.                13.64           10.45       5.84            9.38
  8:01 a.m. - 9:00 a.m.                13.80           12.39       9.49            8.84
  9:01 a.m. - 10:00 a.m.               15.57           12.27       9.45            9.41
 10:01 a.m. - 2:00 p.m.                 9.11           10.01      12.42           12.03
  2:01 p.m. - 3:00 p. m.                7.01           10.63      15.82           11.64
  3:01 p.m. - 4:00 p.m.                 4.80            9.75      18.25           11.91
  4:01 p.m. - 11:59 p.m.                3.47            8.39      18.21           12.10




                                               20
In-Office Cost System Telephone Readings                                 CRR-AR-08-004



           APPENDIX D: DATA COLLECTOR SURVEY RESULTS

                                                            Number of
Question                          Response                  Responses    Percentage
                               Data Collector Information
Are you a full-time data          • Yes                        254          55
collector?                        • No                         208          45

Do you conduct IOCS                •   Yes                     363          81
telephone readings?                •   No                       84          19

What is your skill level for       •   Poor                     10           3
conducting IOCS                    •   Fair                     19           5
telephone readings?                •   Good                    178          45
                                   •   Excellent               185          47
How comfortable are you            •   Not at all               15           4
with reading the scripted          •   Somewhat                 55          14
instructions and                   •   Mostly                  166          43
questions to telephone             •   Very                    153          39
respondents?

How often do you have to           •   Not at all              131          41
deviate from the IOCS              •   Somewhat                138          43
script in order to complete        •   Mostly                   49          15
a reading when the                 •   Very                      2           1
respondent is
uncooperative or
inexperienced?

                                 Perceptions of Respondents
How often do you feel the         • Not at all                  24           6
respondents conduct the           • Somewhat                   117          31
IOCS readings properly?           • Mostly                     198          53
                                  • Very                        36          10

*The total number of responses for each question varies because some replies did not
address every survey question.




                                                   21
In-Office Cost System Telephone Readings              CRR-AR-08-004



                  APPENDIX E: MANAGEMENT’S COMMENTS




                                           22
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           23
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           24
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           25
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           26
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           27
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           28
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           29
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           30
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           31
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           32
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           33
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           34
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           35
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           36
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           37
In-Office Cost System Telephone Readings        CRR-AR-08-004




                                           38
